T         estimony

                      STATEMENT OF
                     DONALD MANCUSO
                 DEPUTY INSPECTOR GENERAL
                  DEPARTMENT OF DEFENSE
                        BEFORE THE
           SENATE COMMITTEE ON ARMED SERVICES
                            ON
            THE NATIONAL SECURITY IMPLICATIONS
               OF EXPORT CONTROLS AND THE
             EXPORT ADMINISTRATION ACT OF 1999



Report No. D-2000-094    DELIVERED: March 23, 2000



              Office of the Inspector General
                  Department of Defense
                                                                   1


Mr. Chairman and Members of the Committee:

I appreciate the opportunity to discuss the Federal Government’s
export licensing processes for militarily sensitive commodities
and technology. As you know, in response to a request from the
Senate Committee on Governmental Affairs, Inspector General
teams from the Departments of Commerce, Defense, Energy, State,
Treasury and the Central Intelligence Agency reviewed a series
of issues related to export controls for both dual-use items and
munitions. The results were contained in an interagency report
and six individual agency reports issued in June 1999. Some of
those results are pertinent to the ongoing dialogue on renewing
the Export Administration Act of 1979 and I will recap the
principal findings as a prelude to commenting on S.1712, the
Export Administration Act of 1999.

Interagency Inspector General Review

Dual-use commodities are goods and technologies with both
military and commercial applications. The current dual-use
export licensing process was established by the Export
Administration Act of 1979, as amended. Although the Act
expired in 1994, its provisions are continued by Executive
Orders 12924, “Continuation of Export Control Regulations,” and
12981, “Administration of Export Controls,” under the authority
of the International Emergency Economic Powers Act. Munitions
exports are controlled under the provisions of the Arms Export
Control Act.

The dual-use export licensing process is managed and enforced by
the Department of Commerce, while the Department of State
manages munitions export licensing. The Departments of Defense
and Energy review the applications and make recommendations to
Commerce and State. The Central Intelligence Agency and the
U.S. Customs Service provide relevant information to Commerce
and State. Customs also enforces licensing requirements for all
export shipments except outbound mail, which is handled by the
Postal Service. In FY 1998, the Department of Commerce received
10,696 dual-use export license applications and the Department
of State received 44,212 munitions export license applications.

The overall objective of the interagency review was to determine
whether current practices and procedures were consistent with
established national security and foreign policy objectives. To
accomplish this objective, we reviewed various random samples of
licensing cases to determine if prescribed processing procedures
were followed within each agency and in multi-agency groups.
                                                              2


Our June 1999 interagency report included findings in seven
areas.

The first area related to the adequacy of export control
statutes and executive orders. We concluded that, in general,
the Arms Export Control Act and the provisions of the Export
Administration Act, as clarified by Executive Order 12981, were
consistent and unambiguous. However, the Commerce and Defense
IG teams stressed that the dual-use licensing process would be
best served if the Export Administration Act were reenacted,
rather than to continue to operate under a patchwork of other
laws and executive orders. Executive Order 12981 was generally
consistent with the Export Administration Act; however, the
Order required modification to reflect the merger of the Arms
Control and Disarmament Agency with the Department of State and
to clarify representation at the Advisory Committee on Export
Policy. In addition, policy and regulations regarding the
export licensing requirements for items and information “deemed
to be exports” needed clarification, and the exporter appeals
process should be formalized.

The second area pertained to procedures used in the export
license review processes. The Commerce, Defense, Energy and
State IG teams concluded that processes for the referral of
dual-use license applications and interagency dispute resolution
were adequate. Officials from those Departments were generally
satisfied with the 30-day time limit for agency reviews under
Executive Order 12981; however, not every agency could meet that
limit. Several Defense organizations and the CIA indicated they
would benefit from additional time to review dual-use license
applications. The Defense and State IG teams were satisfied
with the referral of munitions license cases for review;
however, the Commerce IG team believed that inclusion of the
Department of Commerce in the munitions case referral process
should be considered. Conversely, the Commerce commodity
classification process could benefit from additional input on
munitions-related items from the Departments of Defense and
State. Also, Energy officials believed a more formal review
process for munitions was needed, as the officials were unclear
on their role in the current process.

The third area pertained to the cumulative effect of multiple
exports to individual foreign countries. The U.S. Government
lacks an overall mechanism for conducting cumulative effect
analysis. Some of the agencies involved in the export licensing
process performed limited cumulative effect analyses, but to
varying degrees. The Commerce, Defense, Energy and State IG
                                                             3


teams concluded that additional cumulative effect analysis would
benefit the license application review process.

The fourth area was information management. The Commerce,
Defense and State IG teams questioned the adequacy of the
automated information systems their Departments use to support
license application reviews. Specifically, there were
shortfalls in data quality, system interfaces, and modernization
efforts. The audit trails provided by most of the respective
export licensing automated databases were adequate, but Defense
procedures did not ensure that final Defense positions were
accurately recorded. The CIA IG team reported unsatisfactory
documentation of end-user checks on munitions license
applications.

The fifth set of issues concerned guidance, training and alleged
undue pressure on case analysts by their supervisors. The
review indicated that Defense, Energy and State licensing
officials had adequate guidance to perform their mission;
however, Commerce licensing officers and CIA licensing analysts
could benefit from additional guidance. The Commerce, Defense
and State IG teams identified a need for standardized training
programs in their agencies. With very few exceptions, Commerce
and Defense licensing officials reported they were not
improperly pressured by their supervisors to change
recommendations on license applications. No Energy or State
export licensing officials indicated they were pressured
regarding their recommendations.

The sixth area concerned monitoring compliance and end-use
checks. The Department of Commerce did not adequately monitor
reports from exporters on shipments made against licenses, and
the Department of State’s end-use checking program could be
improved. The Departments of Commerce and State used foreign
nationals to conduct an unknown number of end-use checks. The
Commerce IG team found that most end-use checks were being
conducted by U.S. and Foreign Commercial Service officers or
Commerce enforcement agents. The State IG team concluded it may
be appropriate to use foreign nationals to do the checks under
certain conditions.

The seventh area was export controls enforcement. The Treasury
IG team determined that, although Customs Service export
enforcement efforts have produced results, the Customs Service
was hindered by current statutory and regulatory reporting
provisions for exporters and carriers. The Treasury IG team
                                                                4


also identified classified operational weaknesses in Custom’s
export enforcement efforts.

The IG teams made specific recommendations relevant to their own
agencies. Those recommendations and management comments are
included in the separate reports issued by each office.

Department of Defense IG Report

Now I would like to change focus from the interagency report to
the report issued by my office. Although our report addressed
14 separate issues posed by Chairman Thompson’s August 1998
request, for this testimony I will cover only those that relate
to the Export Administration Act.

One issue was to examine relevant legislative authority.

The general nature of the Export Administration Act and the Arms
Export Control Act creates a broad framework, but we found no
inconsistencies or ambiguities in either law. We concluded that
the dual-use licensing process would be best served through
reenactment of the Export Administration Act.

A second issue was to review Executive Order 12981.

We found that the Executive Order, as implemented, is generally
consistent with the objectives of the Export Administration Act.
However, the Executive Order decreased from 40 to 30 days the
time that the Department has to review license applications. As
a result of the shortened review period, there were indications
that the Department’s ability to locate the information needed
for adequate license review may have been diminished.

A third issue was whether Commerce was properly referring export
license applications for review by other agencies.

Defense officials expressed general satisfaction with referrals
from Commerce, although Defense officials disagreed with
Commerce’s decision not to refer 5 of 60 sampled dual-use item
applications. They also expressed concern that Commerce
referred too few commodity classification requests to Defense
for review. The commodity classification process matches a
prospective export item with an export control classification
number. Those numbers indicate whether an export license is
required. In FY 1998, exporters submitted 2,723 commodity
classification requests containing 6,161 line items to Commerce,
which referred a mere 12 requests to Defense for review. I will
                                                              5


discuss our concern regarding the commodity classification
process in more detail when I address S.1712.

A fourth issue concerned the interagency dispute resolution
process for appealing disputed license applications.

With one possible exception, we found that the interagency
escalation process gave Defense a meaningful opportunity to
appeal disputed dual-use license applications, although the
outcome of the process often favored the Commerce position.
Defense elected not to escalate some disputed dual-use
applications after weighing such considerations as the substance
of the case, the viewpoints expressed by Department principals
and the likelihood of prevailing at the Advisory Committee on
Export Policy. Disputes over munitions applications were
resolved between office chiefs at Defense and State.

Other issues related to whether the current licensing processes
adequately took into account the cumulative effect of technology
transfers.

We found that the licensing process at the Defense Threat
Reduction Agency occasionally took into account cumulative
effect, but participants in the licensing process did not
routinely analyze the cumulative effect of proposed exports or
receive assessments to use during license reviews. In addition,
Defense organizations did not conduct required annual
assessments that could provide information on the cumulative
effect of proposed exports. The Defense Threat Reduction Agency
has initiated actions designed to increase the degree to which
cumulative effect analysis is incorporated into the licensing
process. We recognize that organizing and resourcing a
meaningful cumulative effect analysis process poses a
significant challenge, but conclude that this is clearly an area
warranting more emphasis.

As a result of our review, we made numerous recommendations to
the Department to improve the effectiveness and efficiency of
export licensing review efforts. In this regard, we recommended
that the Department take measures to clarify responsibility for
cumulative effect analysis, improve management information
systems and revise internal procedures so as to make better data
available to licensing officials. Additional recommendations
involved such things as improved training and enhanced
coordination with State and Commerce.
                                                             6


The Department was generally responsive to our findings and
recommendations and a range of agreed-upon actions have been
initiated. Meanwhile, however, the Department also has been
responding to increasing concerns from allies, U.S. exporters
and various officials throughout the Government that the current
export licensing review processes are too cumbersome and
insufficiently focused. Wide-ranging efforts are currently
under way to reengineer those processes. The Office of the
Inspector General, DoD, is not yet directly involved in those
efforts, but we are monitoring them with interest and tracking
progress through our standard audit follow-up process. In
addition, we are completing the first of seven annual
interagency audits of export control issues mandated by Section
1402 of the National Defense Authorization Act for Fiscal Year
2000. In conjunction with the Inspectors General of Commerce,
Energy and State, we plan to issue our reports by March 31,
2000. This year, our reports will focus on “deemed exports” and
counterintelligence issues.

Comments on S. 1712

In commenting on S.1712, I emphasize that these views are those
of the IG, DoD, and do not necessarily reflect the positions of
DoD managers or the managers and IGs of other Federal agencies.

As previously mentioned, we believe there is a clear need to
reenact the Export Administration Act. During the two decades
since that law was enacted, commercial technologies and products
have become vastly more applicable to military systems and
capabilities, especially in the information technology arena.
It is vital for our national security that the export control
regime for dual-use commodities be firmly grounded in a
comprehensive, clear and up to date statute. We further believe
that S.1712 is a good start toward such a statute; however, it
could be improved in a few areas. We respectfully offer the
following suggestions.

License Exceptions

Section 101 of S.1712 allows an exporter to file an advanced
notification of intent to export in lieu of a license
application, in circumstances to be outlined in Department of
Commerce regulations. Additionally, this section allows the
Secretary of Commerce to grant authority to export an item on
the Control List without prior license or notification in lieu
of a license-–a license exception.
                                                             7


We believe it would best serve the national interest to keep the
license exception authority fairly limited. Either the bill or
implementing regulations should specify that certain high-risk
items, for example encryption technology and jet engines, never
should be exported without an export license, regardless of
destination. Those items also should not be subject to the
foreign availability and mass-market criteria outlined in
Section 211 of S.1712, which is discussed later in this
statement.

Authority for National Security Export Controls

Section 201(c) of S.1712 states "controls may be imposed, based
on the end use or end user, on the export of any item, that
could materially contribute to the proliferation of weapons of
mass destruction." The addition of the word "materially"
weakens the standard and is subject to interpretation.
Moreover, the cumulative impact of multiple releases that
individually appear immaterial could be significant. We
recommend that the term “materially” be deleted.

National Security Control List

The Export Administration Act of 1979 required that a list of
militarily critical technologies be integrated into the overall
Control List of items requiring an export license. Any
disagreement between the Secretary of Commerce and Defense
regarding the integration of an item on the list of militarily
critical technologies into the control list was to be resolved
by the President.

Section 202 of S.1712 prescribes a new National Security Control
List. The Secretary of Commerce is authorized to establish and
maintain the National Security Control List, although inclusion
of items on the list requires the concurrence of the Secretary
of Defense. The Secretary of Commerce, in establishing and
maintaining the National Security Control List, is required to
"balance the national security risks of not controlling the
export of an item against the economic costs of controlling the
item.” We feel that the Secretary of Defense should have more
than just a consultative role in both establishing and
maintaining the list and in balancing the risk to national
security against economic costs of controlling the item.
Additionally, it is important to delineate how disagreements
between the Secretary of Commerce and Defense are to be
resolved. Similar issues pertain to modifications to the list
under Section 205.
                                                               8


Determination of Foreign Availability and Mass-Market Status

Section 211 of S.1712 gives to the Department of Commerce and
commercial enterprise (by petition) the authority to determine
if an item has foreign availability or mass-market status. If
an item is determined to have this status, it is to be removed
from the Commerce Control List and National Security Control
List, making it no longer subject to export controls. According
to the procedures outlined in this section, an interested party
can petition the Secretary of Commerce for a determination that
an item has a foreign availability or mass-market status. In
evaluating the petition, the Secretary of Commerce is required
to consult with the Secretary of Defense and other appropriate
agencies. However, that is the extent of the Department of
Defense role in the process.

The Secretary of Commerce also is given unilateral authority to
establish the procedures and criteria to be used in determining
whether an item has foreign availability or mass-market status
(there is some very vague and subjective criteria outlined in
Section 211). Thirty days after a notice of determination is
published in the Federal Register, the item would be removed
from the National Security Control List. The Secretary of
Defense would have no recourse if he or she does not agree with
the Secretary of Commerce's determination that the item should
no longer be subject to export controls. In our opinion, this
section needs to be changed to provide the Secretary of Defense
a much stronger role in determining the propriety of removing
items from export controls for any reason, including claimed
foreign availability or mass-market status.

Export License Procedures

Section 501(b)(2)(A)(ii) of S.1712 could be interpreted to read
that a referral of a dual-use license application to the
Secretary of Defense for review is discretionary. In Executive
Order 12981, “Administration of Export Controls,” the President
prescribed additional procedures for export license applications
submitted under the Export Administration Act of 1979. Among
other things, those procedures required the Department of
Commerce to refer all dual-use license applications to the
Department of Defense. We believe those procedures should be
continued in the proposed Export Administration Act of 1999.
Section 501 should be changed to require that all applications,
unless otherwise delegated by the Secretary of Defense, be
referred to the Secretary of Defense for review.
                                                             9


Section 501(a)(3) of S.1712 indicates that the time period for
reviewing applications is based on calendar days. Section
501(c)(4) provides that a department must review matters for
which referral is made within 25 days, which translates to
approximately 18 working days. In our previous review of the
export licensing process, we determined that 30 days was often
insufficient for coordination within the Department of Defense
and could result in an inadequate review. Recognizing that the
Department of Defense is attempting to streamline its internal
administrative processes, nevertheless we remain concerned that
statutorily mandated timeframes that are too aggressive would
result in poor quality reviews and unacceptable risk.
Therefore, we believe that the time period for initial review
should be at least 30 days, as currently provided for in
Executive Order 12981.

S.1712 does not provide for allowance of additional time in
noteworthy cases. A provision should be added that, if the
Secretary of Defense requests an additional period of time in
which to evaluate an application on grounds of national
security, the Secretary of Commerce should grant an extension of
25 days.

Commodity Classification Requests

Section 501(h)(1) of S.1712 requires the Secretary of Commerce,
upon receiving a written request for the commodity
classification of an item on the Control List, to “promptly
notify” the Secretary of Defense and other departments and
agencies of the request. The section does not further define
the role of the Department of Defense. As identified in our
1999 report on the Defense export licensing process, an
interagency process is needed in determining the commodity
classification of an item on the Control List, so that all
perspectives can be considered. S.1712 should be modified to
provide for such an interagency process.

Last year, as part of the joint IG review, the Commerce and
Defense teams asked officials from those Departments to jointly
examine 13 commodity classification decisions previously made by
Commerce without Defense input. The officials agreed that
Commerce had properly classified 4 items and misclassified one
item. There were varying degrees of disagreement on the other
8 decisions. For example, Defense officials questioned a
Commerce decision regarding a ruggedized, portable, encrypted
radio. Commerce officials stated that the radio had not been
built to military standards and therefore was not a munitions
                                                             10


item under the jurisdiction of the International Traffic in Arms
Regulations. Defense officials stated that literature described
the radio as militarized and that other radios built by the
manufacturer were subject to munitions export licenses. The
second request was for an antenna. Commerce officials stated
that the antenna was not a munitions item, despite company
literature describing it as militarized. Defense officials
stated that the literature satisfied International Traffic in
Arms Regulations criteria for a “defense article” (munitions)
and that the manufacturer had a history of exporting products
under the munitions export licensing process.

Anecdotal evidence provided to the auditors suggests that
Commerce could make incorrect commodity classification decisions
if it does not receive Defense advice on those decisions. In
1995 and 1997, Commerce decided that microchannel plates (used
in night vision devices) fell under the Export Administration
Regulations even though Commerce, Defense and State had decided
in 1991 that this type of item fell under the jurisdiction of
the International Traffic in Arms Regulations. In 1995,
Commerce determined that a U.S. aerospace company’s accident
report on a failed Chinese rocket launch that contained
technical data fell under the Export Administration Regulations
rather than the International Traffic in Arms Regulations. In
1996, Commerce determined that a protective suit fell under the
Export Administration Regulations, while Defense and State held
that it was a chemical and biological defensive suit subject to
the International Traffic in Arms Regulations.

I do not have a basis for affirming which position was correct
in these cases; however, I believe it is clear that these are
difficult decisions and the full range of opinion from various
elements of the Government ought to be elicited and considered.

We believe Section 501 should require that the Department of
Commerce promptly refer commodity classification requests for
Defense review and allow a reasonable time period for Defense to
review those referrals. If there is no agreement on the
commodity classification, an interagency dispute resolution
process should be initiated to determine the final outcome.

Interagency Dispute Resolution Process

Executive Order 12981 establishes dispute resolution procedures
to include escalation procedures and timelines for disputed
dual-use cases. Included in the Executive Order are provisions
for the Secretary of Defense to elevate issues to the President.
                                                             11


This authority is contained in the Section 502 of S.1712, but
the provision is somewhat unclear and could be subject to
interpretation. Therefore, we recommend an additional separate
section to allow the Secretary of Defense to escalate an
application dispute to the President for final resolution. Even
if this appeal channel is seldom used, its existence would be
beneficial as a safeguard for the national interest.

Enforcement

Section 607 of S.1712 appears to enact the same law enforcement
authorities that were contained in the Export Administration Act
of 1979. However, section 607(a)(2)(A) could be interpreted to
allow the head of other departments or agencies the authority to
convey the same, more extensive, law enforcement authorities as
are enjoyed by Department of the Treasury (Customs) and the
Department of Commerce in this area. To avoid confusion,
section 607(a)(2)(A) should be modified to reflect that this Act
only authorizes officers and employees of departments and
agencies other than Customs, or other than those designated by
the Secretary of Commerce, to exercise the enforcement authority
provided in Section 607(a)(3)(A).

Summary

The Office of Inspector General, DoD, strongly supports the
enactment of a new Export Administration Act. This vital area
deserves a comprehensive statutory framework that clearly
prescribes the roles and responsibilities of all interested
Departments and Agencies. We believe that S.1712 should be
strengthened by providing an increased role for the Secretary of
Defense, in partnership with the Secretary of Commerce, in the
ongoing effort to balance national security and economic needs
as we move forward in the coming years.
